                                                  




AMERICAN RECOVERY AND
REINVESTMENT ACT:
Opportunities Exist to Recover Funds and Reduce
Future Costs by Improving Procurement Policies



                    Audit Report OIG-A-2013-016 | July 29, 2013




                        
    NATIONALRAILROAD
    PASSENGER CORPORATION




Memorandum
To:		           Eleanor Acheson, Vice President, General Counsel
                Dan Black, Acting Chief Financial Officer
                Jeff Martin, Chief Logistics Officer

From:		         David R. Warren
                Assistant Inspector General, Audits

Date:		         July 29, 2013

Subject:		      American Recovery and Reinvestment Act: Opportunities Exist to Recover
                Funds and Reduce Future Costs by Improving Procurement Policies
                (OIG-A-2013-016)


The American Recovery and Reinvestment Act of 2009 (ARRA) authorized the Federal
Railroad Administration (FRA) to provide Amtrak a grant of $1.3 billion. Amtrak was
required to use the grant for capital projects to repair, rehabilitate, or upgrade railroad
assets or infrastructure, and for security projects, including life safety improvements.
Amtrak’s Procurement and Materials Management 1 (Procurement and Materials)
reported spending approximately $788.5 million of ARRA funds on capital and security
project contracts it managed. 2 The original aggregate contract value of these projects
was about $705 million; however, as the projects progressed, Procurement and
Materials officials and the contractors agreed to contract change orders valued at
approximately $83.5 million, according to Procurement and Materials data.

 The Law Department develops Amtrak’s general provisions for construction contracts,
according to a senior Procurement and Materials official. The provisions define a
change order or contract modification as a document executed after the contract is

1 Procurement and Materials Management reports to the Acting Chief Financial Officer.
2 We previously reported on $158.8 million of ARRA contracts managed by Jacobs Project Management
Company in American Recovery and Reinvestment Act: Some Questioned Invoice Charges and Minimal Benefit
from Duplicative Invoice-Review Process (OIG-A-2012-021, September 21, 2012).
                                                                                            2
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

awarded in order to clarify, revise, add to, or delete from the original scope of work. To
avoid overpaying for agreed-to tasks, business procurement best practices call for a
thorough and accurate review of the documentation supporting change orders before
approving them.

Given the large number and value of ARRA change orders managed by Procurement
and Materials, we reviewed the adequacy of its process for reviewing and approving
change orders. Our reporting objective is to assess whether the policies, procedures, and
practices used by Procurement and Materials ensured that the values of ARRA contract
change orders were adequately supported and allowable under the contracts’ terms and
conditions. We discuss our detailed scope and methodology in Appendix I.

SUMMARY OF RESULTS
The policies, procedures, and practices used by Procurement and Materials provided
assurance that change orders to its ARRA contacts were, with minor exceptions,
adequately supported and allowable under the contracts’ terms and conditions. To
Procurement and Materials’ credit, we found an error rate of 1.2 percent. This low error
rate was in part attributable to Procurement and Materials’ enhancement of the review
process for ARRA funds—by engaging contractors to review the fairness and
reasonableness of proposed change order values. The errors we identified amounted to
approximately $824,042 — $596,345 in questioned costs and $227,697 in unsupported
costs. We questioned these costs because Procurement and Materials approved change
orders that contained errors, including applying (1) overhead rates to costs not covered
in the general contract provisions, (2) incorrect overhead rates, (3) incorrect profit rates,
and (4) inappropriate markup of subcontractor costs and sales tax.

In addition, certain policy weaknesses caused Procurement and Materials to pay about
$529,175 in unnecessary costs for some contract change orders:

   For change orders to construction contracts, the procurement policy states that the
    profit and overhead should be applied to change orders. The policy also establishes
    different profit and overhead rates based on the value of the change order. Lower-
    valued change orders are permitted higher rates, and higher- valued change orders
                                                                                                              3
                           Amtrak Office of Inspector General
            American Recovery and Reinvestment Act: Opportunities Exist to


       Recover Funds and Reduce Future Costs by Improving Procurement Policies


                            OIG-A-2013-016, July 29, 2013

    are permitted lower rates. 3 However, the policy does not explicitly state that
    overhead and profit rates should be based on the total value of a change order and
    not on each individual component. A senior law department official stated that the
    policy intent is that rates should be applied to the total value, but noted it could be
    interpreted to permit charges on individual components of change orders.
    Consequently, on 36 of 60 change orders, rates were charged and approved on the
    component basis, rather than on the total value. Because the component values were
    low, the contractors received higher overhead and profit rates than if the rates had
    been applied at the higher total change order value. We estimate that if the lower
    rates had been charged, about $529,175 could have been saved.

		 For change orders to services contracts, the policy is silent on the rates for overhead,
    profit, and subcontractor markup that can be added to a change order. The policy
    contains rates for those charges on construction contracts. On 8 of 31 change orders
    to services contracts, contractors applied—and in some cases, Procurement and
    Materials approved—higher overhead and profit rates than are permitted for change
    orders to construction contracts. In other cases, officials used the construction rates
    as a basis for negotiating the rates on services contracts.

The opportunity has been missed to save about $529,175 resulting from procurement
policy weaknesses. However, correcting these weaknesses could lead to future change
orders being less costly. We were not able to conclusively document future savings;
nevertheless these weaknesses likely could result in some percentage of change orders
related to Amtrak’s existing contracts—valued at $1.4 billion—being more costly than
necessary.

We recommend that the Acting Chief Financial Officer direct the Chief Logistics Officer
to take the following actions:

(1) Seek reimbursement for the questioned costs.

(2) Obtain documentation or seek reimbursement for the unsupported costs.




3Contractors are allowed a 15 percent overhead and 6 percent profit on change orders $100,000 or less;
11 percent and 4.5 percent on values $500,000 or less; and 7.5 percent and 3 percent on values greater than
$500,000.
                                                                                         4
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

We also recommend that the General Counsel work with the Chief Logistics Officer to
clarify procurement policy by taking the following actions:

(3) Ensure that the overhead and profit rates permitted on a change order is based on
the total amount of the change order, not on the individual components.

(4) Develop guidance to help ensure that rates for overhead, profit, and subcontractor
markup on change orders to service contracts are fair and reasonable.

 In commenting on a draft of this report, management generally concurred with draft
recommendations one through three. They disagreed with draft recommendation four
to establish maximum rates for overhead, profit, and subcontractor markup on change
orders to service contracts. They noted that the diversity of services contracted for
under service contracts may make it difficult to establish maximum rates for overhead,
profit, and subcontractor markup on change orders. We agree with their point.
Therefore, we are recommending in this report that General Counsel and Chief of
Logistics develop guidance to help ensure, where appropriate, overhead, profit, and
subcontractor markup on change orders to service contracts are fair and reasonable. We
also revised as appropriate the section of the report addressing this matter to reflect
management’s comments.


CHANGE ORDER REVIEW PROCESS WAS GENERALLY SOUND
We found that the process used by Procurement and Materials to review change orders
was generally sound. It included contractor-supported review of change order values
for fairness and reasonableness, as well as overall reviews of the proposed change
orders by Procurement and Materials officials. We reviewed 92 change orders related to
ARRA contracts managed by Procurement and Materials and found an error rate of 1.2
percent, approximately $824,042. These change orders accounted for about $70.8 million
(85 percent) of the approximately $83.5 million of ARRA change orders managed by
Procurement and Materials (see Table 1).
                                                                                          5
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

         Table 1. Summary of Change Orders to ARRA Contracts
                     Managed By Procurement and Materials

                                        Number of
                   Type of                Change            Total Amount of
                   Contract                Orders            Change Orders
                   Construction                   60             $ 47,772,135
                   Services                       31               22,623,855
                   Othera                          1                  430,280
                    Subtotal                      92             $70,826,270
                   Total amount of
                   change orders                                  $83,509,086
                   Percent
                   Reviewed                                                  85
               a
                Includes both construction and services
               Source: OIG analysis of Procurement and Materials ARRA contract files


Questioned Costs

We reviewed 92 change orders and questioned approximately $824,042 of the total
value of $70.8 million. Our basis for questioning this amount follows:

		 We question $478,940 because Procurement and Materials approved change orders
    in which contractors applied overhead rates to costs not covered in the general
    contract provisions. The general provisions permit a contractor to add an overhead
    rate to costs for direct material, direct labor, and fringe benefits. However, we found
    35 change orders in which contractors inappropriately added the overhead rate to
    labor burden, other direct costs, and costs related to contractor-owned equipment,
    resulting in approximately $333,699 in additional overhead charges. The general
    provisions do not permit adding overhead to any of these categories. Doing so also
    resulted in an additional $145,241 profit charged by contractors. We estimate that
    eliminating these costs in calculating the overhead and profit would have reduced
    the amount of these change orders by $478,940.

		 We question $43,685 because Procurement and Materials approved change orders in
    which subcontractors inappropriately applied a 5 percent markup on five change
    orders. The general provisions permit prime contractors to add 5 percent to the
                                                                                                           6
                           Amtrak Office of Inspector General
            American Recovery and Reinvestment Act: Opportunities Exist to


       Recover Funds and Reduce Future Costs by Improving Procurement Policies


                            OIG-A-2013-016, July 29, 2013

    dollar value of the work being performed by subcontractors to cover administrative
    costs, but they do not permit subcontractors to add 5 percent to the value of work
    performed by its subcontractors. Nevertheless, subcontractors inappropriately
    applied a 5 percent markup to their subcontractors on the five change orders. We
    estimated that eliminating this inappropriate charge would have reduced the change
    order amount by $43,685.

		 We question $26,871 because Procurement and Materials approved a change order
    in which a contractor inappropriately applied a markup to sales taxes. Costs for
    sales taxes were not included in the contract because Amtrak is exempt from paying
    sales tax. However, because the contractor—and not Amtrak—purchased the
    materials, sales tax was paid. Procurement and Materials staff agreed to a change
    order that allowed charges for sales tax. The prime contractor inappropriately
    applied a 2 percent markup to the sales tax on materials it directly purchased, and
    its subcontractors inappropriately applied a 3 percent markup on the sales tax
    related to the costs of increased insurance and bond. However, the general
    provisions do not allow any sales tax markup. We estimate that eliminating the sales
    tax markup would have reduced the amount of the change order by $26,871.

		 We question $19,230 because Procurement and Materials approved change orders in
    which contractors applied incorrect overhead rates on 3 of 60 construction change
    orders. The general provisions permit contractors to use different overhead rates
    based on the dollar value of the change order. 4 However, on three change orders the
    contractors applied a higher overhead rate than permitted by the provisions. For
    example, on one change order for the Pelham Bay Bridge, the contractor applied a
    15 percent overhead rate; however, the contractor should have applied an 11 percent
    rate because the amount was between $100,000 and $500,000. We estimate that
    applying the correct overhead rate to the three change orders would have reduced
    the amount of these change orders by $19,230.

		 We questioned $14,948 because Procurement and Materials approved one change
    order that used an incorrect methodology to determine profit. According to an
    Amtrak official, the general and administrative (G&A) cost should be calculated by
    multiplying a contractor’s G&A rate by its total costs. Profit should be calculated by
    multiplying a contractor’s profit rate by the total costs including the amount added

4The general provisions allow up to 15 percent overhead on change orders $100,000 or less; 11 percent on
values $500,000 or less; and 7.5 percent for values greater than $500,000.
                                                                                                          7
                           Amtrak Office of Inspector General
            American Recovery and Reinvestment Act: Opportunities Exist to


       Recover Funds and Reduce Future Costs by Improving Procurement Policies


                            OIG-A-2013-016, July 29, 2013

    for G&A. However, on one service change order, the contractor used a different
    methodology to calculate the G&A and profit rates. After we questioned this
    methodology, the contractor provided Procurement and Materials an updated
    spreadsheet to support the change order. The updated information showed a correct
    G&A calculation but an incorrect profit rate calculation. We estimated that applying
    the correct methodology to determine the amount of profit would have reduced the
    change orders amount by $14,948.

		 We question $12,671 because Procurement and Materials approved change orders in
    which contractors applied an incorrect profit rate on 5 of the 60 construction change
    orders. The general provisions permit contractors to use different profit rates based
    on the dollar value of the change order. 5 In some instances, however, contractors
    applied a higher profit rate than allowed. For example, on two change orders for the
    Los Angeles maintenance facility project, the contractors applied a 6 percent profit
    rate; however, based on the change order value, they should have applied a
    4.5 percent rate. We estimate that applying the correct profit rate to these five change
    orders would have reduced the amount by $12,671.


Unsupported Costs

    We also identified $227,697 in unsupported costs that were approved by
    Procurement and Materials officials. A change order to a contract for the Atglen-
    Susquehanna Branch transmission line replacement project had no documentation
    to support $227,697 or 41 percent of the $553,241 change order. A Procurement and
    Materials official told us that the only documentation to support the lump sum
    charge was a sentence in the negotiation memorandum stating that the amount was
    fair and reasonable. According to the Procurement and Materials official, they did
    not ask the contractor to provide any additional supporting documentation.

IMPROVEMENTS TO THE PROCUREMENT POLICY COULD LIKELY
REDUCE FUTURE COSTS
We estimate that Procurement and Materials paid more than $529,000 in unnecessary
costs due to weaknesses in procurement policy. These weaknesses apply to change
orders for ARRA and other Amtrak contract change orders. Correcting these

5The general provisions allow up to 6 percent profit on change orders $100,000 or less; 4.5 percent for
values $500,000 or less; and 3 percent for values greater than $500,000.
                                                                                       8
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

weaknesses could likely lead to future change orders being less costly. We were not able
to conclusively estimate the potential savings; however, because Amtrak’s existing
contracts are valued at about $1.4 billion, the savings could be significant.

Policy Weaknesses Related to Overhead and Profit Rates
The general provisions of construction contracts permit contractors to add overhead
and profit to change orders. However, they do not clearly define how they should be
applied. According to a Law Department senior official responsible for developing the
general contract provisions, the intent is that profit and overhead rates should be
applied to the total value of the change order. However, because that is not explicitly
stated, it could be interpreted that the rates can be applied to the individual
components that make up the total value. As a result of this weakness, in some cases
contractors were permitted to apply overhead and profit rates for each component.
Using that practice was more cost-advantageous to the contractors, but not to Amtrak
because lower-value change orders are permitted to include higher overhead and profit
rates (see table 2).

    Table 2. Overhead and Profit Rates Permitted under the General


        Provisions for ARRA Construction Contracts (percent)




                                                    Rate Permitted

                    Change Order
                    Value                        Overhead            Profit
                    $100,000 or less                      15              6
                    $500,000 or less                      11            4.5
                    Greater than $500,000                 7.5             3
             Source: Amtrak General Provisions for Construction Contracts


We found that in 36 of the 60 change orders for construction contracts, contractors
charged and were approved to use overhead and profit based on the individual change
order component values. For example, change order 61 to the Los Angeles maintenance
facility project consisted of 39 different components. Most of the components were
valued below $100,000, but the total value of the change order was more than
$1 million. The contractor added a 15 percent overhead and 6 percent profit rate to each
                                                                                          9
                            Amtrak Office of Inspector General
             American Recovery and Reinvestment Act: Opportunities Exist to


        Recover Funds and Reduce Future Costs by Improving Procurement Policies


                             OIG-A-2013-016, July 29, 2013

component, and Procurement and Materials officials approved these change orders. If
the profit and overhead rates had been based on the total change order value, the rates
charged would have been 7.5 percent for overhead and 3 percent for profit. We
estimate that the costs for the 36 change orders would have been about $529,175 less
if overhead and profit rates had been based on the total change order values.

Policy Weaknesses Related to Change Orders to Service Contracts
We also identified weaknesses in procurement policies on service contract changes in
two areas: (1) overhead and profit rates, and (2) administrative cost charges for
subcontractors.

Overhead and Profit Rates

The construction contract general provisions permit contractors to use different
overhead and profit rates based on the change order value, as shown previously in
Table 2. However, neither the Procurement Manual nor the contract general provisions
have similar provisions for service contracts. We recognize the construction contract
general provisions may not be applicable to all service contracts due to the different
nature of the services being provided. However, in the absence of guidance the
amounts charged vary widely. Eight of the 31 change orders to service contracts we
reviewed contained overhead and profit rate charges, and the remaining 24 change
orders did not identify rates for these items. In the absence of specific guidance, the
Procurement and Materials staff approved overhead rates ranging from 7.5 to 170
percent and approved profit rates ranging from 4.5 to 14 percent for the above change
orders:

    		 Staff used the construction contract general provisions to negotiate lower
        overhead and profit rates on two change orders. However, only one of the final
        change orders included the correct overhead and profit rates based on the total
        value of the change order.

         Staff approved overhead rates higher than those in the general provisions on
         seven change orders. For example, a 170 percent overhead rate was permitted on
         a change order related to a train control dispatch system project, and a
         21 percent combined overhead and profit rate was permitted for a change order
         related to an asbestos-removal project.
                                                                                        10
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

Administrative Markup Rate

The Procurement Manual and the general provisions also do not address the percentage
for administrative costs that a contractor can add to its subcontractor costs on service
contracts. As in the cases above, without specific guidance, Procurement and Materials
staff were inconsistent in the percentage of administrative cost they allowed contractors
to charge.

For construction contracts, the general provisions permit contractors to add 5 percent to
subcontractor costs for administrative costs. On 2 of the 31 change orders to service
contracts, contractors were permitted to charge considerably more than 5 percent to
subcontractor costs. On one change order, a contractor charged and was approved to
include a 21 percent combined overhead and profit rate for subcontractor costs. In this
case, the subcontractor was to perform all work on the change order value, $1.6 million;
consequently, the contractor received about $285,900 for administrative costs. On
another change order valued at $578,506, a contractor charged almost 13 percent for
subcontractor administrative costs and received about $56,734.

CONCLUSIONS AND RECOMMENDATIONS
Overall, Procurement and Materials thoroughly reviewed the ARRA change orders for
the projects it managed to ensure that the value was adequately supported. We
identified some minor questioned and unsupported costs. More importantly
procurement policy weaknesses contributed to change orders being more costly than
necessary. These same weaknesses apply to all Amtrak contract change orders, and
correcting them could lead to future change orders being less costly.

We recommend that the Acting Chief Financial Officer direct the Chief Logistics Officer
to take the following actions:

(1) Seek reimbursement for the questioned costs.

(2) Obtain documentation or seek reimbursement for the unsupported costs.

We also recommend that the General Counsel work with the Chief Logistics Officer to
clarify procurement policy by taking the following actions:

(3) Ensure that the overhead and profit rates permitted on a change order is based on
the total amount of the change order, not on the individual components.
                                                                                         11
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

(4) Develop guidance to help ensure that rates for overhead, profit, and subcontractor
markup on change orders to service contracts are fair and reasonable.

MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of this report, the Acting Chief Financial Officer concurred
with draft recommendation one to seek reimbursement for the questioned costs we
identified, except for the costs we questioned related to vacation and holiday pay. He
noted that while it is not customary to negotiate and award contacts that include
holiday and vacation pay, no policy prohibits the inclusion of holiday and vacation pay.
We agree that holiday and vacation pay is not prohibited, and we deleted these
questioned costs. This reduced the costs we questioned from $871,122 to $824,042.
Management concurred with draft recommendations two and three.

Management did not concur with draft recommendation four to establish maximum
rates for overhead, profit, and subcontractor markup on change orders to service
contracts. Management noted that the standard construction percentages are not
applicable or appropriate to the vast majority of service contracts due to the diversity of
service types in this commodity group. They stated that service contracts are primarily
awarded utilizing fully burdened rates; they determine fair and reasonableness by
comparing rates from various offerors or historical data. Finally, management stated
that when a change order is issued and rates are not established in the contract, a
breakdown is requested and, if appropriate, negotiations occur.

We agree that the diversity of services contracted for under service contracts may make
it difficult to establish maximum rates for overhead, profit, and subcontractor markup
on change orders to service contracts. Nonetheless, our work indicates that without
specific guidance, Procurement and Materials staff were inconsistent in the percentages
of cost they allowed contractors to charge on change orders to service contracts.
Therefore, our recommendation in this report is that the General Counsel and Chief of
Logistics develop guidance to help ensure that overhead, profit, and subcontractor
markup on change orders to service contracts are fair and reasonable. We also revised
the section of the report addressing this matter to reflect management’s comments.

Amtrak’s comments are responsive to our recommendations. Their memorandum is
reprinted in Appendix II.
                                                                                     12
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

                                     Appendix I

                         SCOPE AND METHODOLOGY
This report provides the results of our review to assess whether the policies,
procedures, and practices used by Procurement and Materials Management
(Procurement and Materials) ensured that the values of the American Recovery and
Reinvestment Act (ARRA) contract change orders were adequately supported and
allowable under the contracts’ terms and conditions. We reviewed all ARRA contract
change orders managed by Procurement and Materials valued at $200,000 or more.
Using this scope, we reviewed 92 change orders out of a total of 521. The value of the
change orders we reviewed was about $70.8 million—85 percent of the value of all
ARRA change orders managed by Procurement and Materials. We conducted this audit
work from October 2012 through July 2013, in Philadelphia and Washington, DC.

Our methodology for accomplishing this work included reviewing contract terms and
conditions, construction contract general provisions, the Amtrak Procurement Manual,
and applicable clauses of the Code of Federal Regulations regarding allowable costs.
We also researched public and private procurement best practices for reviewing and
approving contract change orders. We interviewed Procurement and Materials officials
about their practices for reviewing and approving change orders. We reviewed change
order contract files to determine whether those files contained documentation to
support the change order value, such as contractor cost and pricing data; analyzed the
cost and pricing data by Procurement and Materials staff; and reviewed negotiation
memos.

When we identified a lack of documentation to support the costs included in the change
order, we requested support from the Procurement and Materials staff. If they could not
provide documentation, we considered these to be unsupported costs.

We identified questioned costs by (1) comparing the approved overhead and profit
rates and subcontractor markup on construction contract change orders with the rates
and markup allowed in the construction contract general provisions, (2) comparing
change orders issued for contractors’ vacation and holiday pay and sales tax mark-up to
procurement policy, (3) reviewing the costs that overhead was applied to for
construction contract change orders, and (4) reviewing the methodology a contractor
used to calculate General and Administration (G&A) and profit rates by comparing it to
the methodology described by a senior Amtrak official.
                                                                                        13
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

We also identified weaknesses in procurement policy by (1) comparing how the
overhead and profit rates included in the contract general provisions were applied to
construction contract change orders, and (2) comparing the overhead, profit, and
subcontractor markup allowed on change orders to construction contracts with those
allowed on service contracts. We also interviewed a Law Department senior official
responsible for developing the general contract provisions on how to apply overhead
and profit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls
We examined the internal controls related to reviewing and approving change orders
for ARRA contracts. Specifically, we reviewed the internal controls to determine
whether they were adequate to ensure that (1) contractors submitted documentation to
support the change order; and (2) Procurement and Materials officials analyzed the
contractors’ supporting data to determine whether the price was fair and reasonable.
We also reviewed the adequacy and completeness of procurement policies used by
Procurement and Materials to complete their reviews. Further, we considered the
impact of any identified policy weaknesses on ARRA and other Amtrak contracts. The
results of our internal controls review are the focus of this report.

Computer-Processed Data
To identify change orders to ARRA-funded contracts we relied on data from the
contracting spreadsheet provided by Procurement and Materials. We did not review the
overall accuracy and reliability of the database that produced that information.
However, for the 92 change orders we reviewed, we compared the database
information with the change order information in the Procurement and Materials
contract file. We identified minor discrepancies between the two data sources. Given
the focus of our work and the steps we took to verify the reliability of the computer-
generated data used in our work, we concluded that the data are sufficiently reliable for
the purposes of our objectives.
                                                                                         14
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to


      Recover Funds and Reduce Future Costs by Improving Procurement Policies


                           OIG-A-2013-016, July 29, 2013

Prior Audit Reports
We identified the following Office of Inspector General reports as being relevant to this
audit’s objectives: We reviewed these reports.

American Recovery and Reinvestment Act: Some Questioned Invoice Charges and Minimal
Benefit from Duplicative Invoice-Review Process (OIG-A-2012-021, September 21, 2012)

American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but Less
than Planned (Report No. 908-2010, June 22, 2011)

American Recovery and Reinvestment Act: Fewer Security Improvements than Anticipated Will
be Made and Majority of Projects Are Not Complete (Report No. 914-2010, June 16, 2011)

American Recovery and Reinvestment Act of 2009: Assessment of Project Risks Associated with
Key Engineering Projects (Report No. 912-2010, May 14, 2010)
                                                                                                                            15
                    Amtrak Office of Inspector General
     American Recovery and Reinvestment Act: Opportunities Exist to
Recover Funds and Reduce Future Costs by Improving Procurement Policies
                     OIG-A-2013-016, July 29, 2013

                                              Appendix II

    COMMENTS FROM THE ACTING CHIEF FINANCIAL OFFICER



                                 NATIONAL RAILROAD PASSENGER CORPORATION
                                                          40 Massachusetts Avenue, NE , Washinglon, DC 20002



                                                                                   $~AMTRAK
    Memo
             Dale   Jul y 19,2013                                   From     Dan M,   Bla:~,b
                                                                             Acting Ch icf Financia l Officcr
              To    David Warren                              D<.:pHrlmcnl   finan ce
                    Assistant In spector General. Audits          Subjccl    Managcmcnt Rc~ponse to Amtrak Office
                                                                             of Ins pcctor Genera l's (O IG) Draft Repol1
                                                                             No. 00 1-2013, dated May 30, 2013
                                                                       cc    J . Ma rt in
                                                                             B, Reyno lds
                                                                             E. Acheson
                                                                             W. Herrmann
                                                                             D , Herndon
                                                                             M. Gagnon
                                                                             M. Paige



    Management has reviewed the O IG Drall Report (No. 00 1-20 13) enti tled "American Recovery
    and Reinvestment Act: Opportu nities to Recover Fund s and Reduce Future Costs by Improving
    Procurement Policics", Management 's response to each of the recommendations is detailed
    below.

    l:tccommendation 1: seek reimbursement for the questioned costs.

    Management I"es ponse - Management concurs w ith the OIG's recommendations to seck
    reimbursement for the questioned costs except for questioned cost related to vacation and
    holiday pay. The questioned cost assoc iated w ith vacation and holiday pay was not for an
    Independent Contractor. The con tractor in q uestion was employed by a third party firm and did
    not have a contract directl y with Amtrak. Whi le it is not customary for Amtrak to negotiate and
    award contracts that include vacat ion and holiday pay, then!: is no policy prohibi ting the
    incl usion of holid ay and vacation pay .

    Recommendation 2: obtain documentation            01'   seek reimbursement fo r the unsuppol"ted
    costs.

    Mana ge m ent r esponse - Managcmcnt concurs with thc OIG 's recom mendation.

    Recommendntion 3: The Gene ..al Counsel worl{ing with th e C hief Logistics Officer take
    nction to clnrify Ilrocurement poli cy to: enSlll"e that overhead and PI'Otit rates p ermitted on
    11 clHlnge order is bused on the nmoullt of the change order, not the individual compo nents.


    Management response - Management concurs w ith the OIG recommendation.
                                                                                                                   16
                    Amtrak Office of Inspector General
     American Recovery and Reinvestment Act: Opportunities Exist to
Recover Funds and Reduce Future Costs by Improving Procurement Policies
                     OIG-A-2013-016, July 29, 2013




  ~ e<"''''''' tn da t'o" 4: rs tab l'l h ",u,mum I'lIt .. ror fJHrh u d ,   ro .... fit, . nd $,,""ont l'lldo r
  ona rk"l) o n ( h ... !t~ "rdull t (l.~n·;~~ conlrad •.

  ,\bn~g~one"l ~ "'f'On.£ - Management ~ not COfICur "ith the 0 10 ro:ommendation .
  Management"fi opinion is that the: standard construclion pe n;entllj!es are not applicable Dr
  IIPIl"Jpriatc to lhe v",,1 majorily of $CrVice conttaeu due 10 the diversity r:isCfvice types indoow
  in thi. commodity group. Service CDnlr&e~ 1m: primarily awarded util izi1g fully burdened mles
  "here foir and rea!lOOllblenes!llm: ddennined by comparing the rates fmlll the varloul offm>rl or
  historical data. When a chm,,~ order'5 is.wcd IUld the niles are nne already a\abl i~hcd in the
  conlr&et •• breakdown i. requested and jf appropriate. """ot'.tion. otI:IIr.
                                                                                17
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to
      Recover Funds and Reduce Future Costs by Improving Procurement Policies
                           OIG-A-2013-016, July 29, 2013

                                    Appendix III



                               ABBREVIATIONS




ARRA        American Recovery and Reinvestment Act

G&A         General and Administrative

OIG         Office of the Inspector General
                                                                               18
                         Amtrak Office of Inspector General
          American Recovery and Reinvestment Act: Opportunities Exist to
     Recover Funds and Reduce Future Costs by Improving Procurement Policies
                          OIG-A-2013-016, July 29, 2013

                                    Appendix IV



                                OIG TEAM MEMBERS




Michael Kennedy, Senior Director

Dorian Herring, Auditor-in-Charge

David Burrell, Senior Auditor

Roslyn Kessler, Senior Auditor

Maryellen Moran, Senior Auditor

John Weinle, Senior Auditor
                                                                                         19
                          Amtrak Office of Inspector General
           American Recovery and Reinvestment Act: Opportunities Exist to
      Recover Funds and Reduce Future Costs by Improving Procurement Policies
                           OIG-A-2013-016, July 29, 2013

           OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission        The Amtrak OIG’s mission is to provide
                            independent, objective oversight of Amtrak’s
                            programs and operations through audits,
                            inspections, evaluations, and investigations focused
                            on recommending improvements to Amtrak’s
                            economy, efficiency, and effectiveness; preventing
                            and detecting fraud, waste, and abuse; and
                            providing Congress, Amtrak management, and
                            Amtrak’s Board of Directors with timely information
                            about problems and deficiencies relating to Amtrak’s
                            programs and operations.




Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste,     Report suspicious or illegal activities to the OIG Hotline
and Abuse                   (you can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    (800) 468-5469

Congressional and           David R. Warren
Public Relations            Assistant Inspector General, Audits

                            Mail:     Amtrak OIG
                                      10 G Street, N.E., 3W-300
                                      Washington, D.C. 20002

                            Phone:    (202) 906-4742
                            E-mail:   David.Warren@amtrakoig.gov
